4a
I

C@OCKLE

s E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com
Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-136

MELANIE PELCHA,
Petitioner,
Vv.
WATCH HILL BANK,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4435 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 1st day of October, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

 

GENERAL NOTARY-State of Nebraska &v Chk
RENEE J. GOSS 9. rs tals .
Notary Public

Affiant 41330
